                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A02010001                                                                Page 1 of 1



      On November 1,2001, we received an allegation that a physicist (subject1) falsely claimed to
      have developed work under an NSF award2whch was in fact developed by other researchers for
      a Department of Education grant3.It was also alleged that Subject used materials developed for
      the Dept. of Education grant without permission. In the course of our preliminary inquiry we
      requested and received additional documentation from complainant4.The matter was opened for
      inquiry on January 3,2002.

      We reviewed records for both awards, analyzed the complaint materials, and interviewed Subject
      by telephone. We found no evidence to support the allegations of false claims and false
      statements. We also found no evidence to support the allegation that Subject improperly used
      materials developed for a Dept. of Education grant on which he was a collaborator. Subject has
      since resigned fiom the Dept. of Education grant.

      This case is closed and no further action will be taken.




          [redacted]
          [redacted]
          [redacted]
      4
          [redacted]


                         Agent                   Attorney            Supervisor               AIGI

  Sign / date
